r
No.

IN THE
SUPREME COURT OF THE UNITED STATES
STEVEN IVEY * PETIONER
VS.
RICHARD CORCORAN,
FLORIDA DEPARTMENT OF EDUCATION - RESPONDENTS
PROOF OF SERVICE
I, Steven Ivey, do swear or declare that on this date, TJ'u/y /20 ^
as required by Supreme Court Rule 291 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery
to a third party commercial carrier for delivery within 3 calender days.
The names and addresses of those served are as follows:
Richard Corcoran, Florida Department of Education, represented by:
Jason D. Borntrege, Office of the General Counsel
FL Dept, of Education, 325 West Gaines St., Ste. 1244
Tallahassee, FL, 32399
I declare under penalty of perjury thaLfche foregoing is true and correct:
Executed on
\

'Signat

1

